      Department of Homeland Security



            CBP Information Technology Management:
                     Strengths and Challenges
                            (Redacted)




OIG-12-95                                       June 2012
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      June 29, 2012

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the U.S. Customs and Border
Protection’s Office of Information and Technology. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Frank Deffer
                                      Assistant Inspector General
                                      Information Technology Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1

Background ..........................................................................................................................2

Results of Audit ...................................................................................................................7

   IT Management Capabilities ........................................................................................... 7
   Recommendations ......................................................................................................... 16
   Management Comments and OIG Analysis ................................................................. 16

   IT Support of Mission Needs ........................................................................................ 17
   Recommendations ......................................................................................................... 27
   Management Comments and OIG Analysis ................................................................. 27

Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................29
     Appendix B:           Management Comments to the Draft Report .......................................31
     Appendix C:           Major Contributors to This Report ......................................................36
     Appendix D:           Report Distribution ..............................................................................37

Abbreviations
     ACE                         Automated Commercial Environment
     ACS                         Automated Commercial System
     ATS                         Automated Targeting System
     BPETS                       Border Patrol Enforcement Tracking System
     CIO                         Chief Information Officer
     CBP                         U.S. Customs and Border Protection
     DHS                         Department of Homeland Security
     E3                          The Next Generation of Enforce
     EA                          enterprise architecture
     FY                          fiscal year
     IT                          information technology
     ITAR                        Information Technology Acquisition Review
     MD                          Management Directive
     OIT                         Office of Information and Technology
     OMB                         Office of Management and Budget
     SELC                        systems engineering life cycle
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                  We audited the U.S. Customs and Border Protection’s (CBP)
                  information technology management. The objective of our audit
                  was to evaluate the Chief Information Officer’s overall information
                  technology management approach, including the extent to which
                  information technology management practices have been put in
                  place and the current information technology environment supports
                  mission needs. Appendix A describes the audit’s scope and
                  methodology.

                  The Chief Information Officer has implemented a strategic
                  planning process, developed an enterprise architecture, and
                  established a systems engineering life cycle process to guide and
                  manage the agency’s information technology environment.
                  Additional progress is needed building the agency’s target business
                  architecture and implementing oversight of information technology
                  spending across all programs and activities within the agency,
                  which increases the risk of enterprise alignment challenges.

                  Challenges remain, however, to ensure that the information
                  technology environment fully supports CBP’s mission needs.
                  Specifically, systems availability challenges exist, due in part to
                  aging infrastructure. Also, interoperability and functionality of the
                  technology infrastructure have not been sufficient to support CBP
                  mission activities fully. As a result, CBP employees have created
                  workarounds or employed alternative solutions, which may hinder
                  CBP’s ability to accomplish its mission and ensure officer safety.

                  We are recommending that the Chief Information Officer provide
                  needed resources for enterprise architecture activities, ensure
                  compliance with the information technology acquisition review
                  process, develop a funding strategy for the replacement of outdated
                  infrastructure, and reassess the existing requirements and
                  technology insertion processes to address challenges in the field.




            CBP Information Technology Management: Strengths and Challenges

                                        Page 1
Background
               CBP is the frontline border security agency within the Department
               of Homeland Security (DHS). CBP is charged with the priority
               mission of keeping terrorists and their weapons out of the United
               States, while facilitating the flow of legitimate trade and travel.
               CBP’s responsibilities include apprehending individuals
               attempting to enter the United States illegally; stemming the flow
               of illegal drugs and other contraband; protecting agricultural and
               economic interests from harmful pests and diseases; protecting
               American businesses from theft of their intellectual property;
               regulating and facilitating international trade; collecting import
               duties; and enforcing U.S. trade laws. In fiscal year (FY) 2012,
               CBP’s budget was approximately $12 billion, 20 percent of DHS’
               overall budget of approximately $60 billion.

               CBP has more than 58,000 employees nationwide and overseas.
               CBP’s workforce includes more than 20,000 Border Patrol agents
               who protect the borders with Mexico and Canada; more than
               20,000 CBP officers who screen passengers and cargo at over 300
               ports of entry; nearly 1,000 Air and Marine interdiction agents who
               prevent people and goods, including weapons, narcotics, and
               conveyances, from illegal entry by air and water; more than 2,200
               CBP agriculture specialists who work to curtail the spread of
               harmful pests and plant and animal diseases; and nearly 2,500
               employees in CBP revenue positions who collect over $30 billion
               annually in entry duties and taxes through the enforcement of trade
               and tariff laws. Additionally, CBP has 8,000 employees providing
               operational and mission support. Figure 1 shows CBP’s
               organizational structure.




         CBP Information Technology Management: Strengths and Challenges

                                     Page 2
      Figure 1. CBP Organizational Structure as of December 2011

      CBP’s Office of Information and Technology (OIT) provides
      information technology (IT) services and products that enable CBP
      to meet its missions. CBP, with an IT budget of $1.5 billion in
      FY 2012, is the largest IT component within DHS, comprising 26
      percent of the Department’s $5.8 billion IT budget. OIT employs
      5,399 IT staff—2,231 Federal employees and 3,168 contractors.
      CBP’s IT operational infrastructure—
             Supports more than 65,000 workstations;
             Processes more than 26 billion database transactions per day;
             Manages the largest DHS data center, with more than
             70,000 square feet of floor space; and
             Supports tactical communications infrastructure and
             equipment for 1,100 tower sites with radio equipment and
             more than 65,000 mobile and portable radios.

      To manage CBP’s critical IT environment, OIT is organized into
      several offices. Five program offices provide IT expertise in their
      respective areas. The Passenger Systems Program Office provides
      application development and continued operational support of
      traveler and immigration-related systems. The Cargo Systems
      Program Office is responsible for the development, maintenance,
      and deployment of systems and interfaces that support CBP, other
      government agencies, and the trade community regarding the
CBP Information Technology Management: Strengths and Challenges

                             Page 3
      importation, exportation, and control of merchandise shipments.
      The Targeting and Analysis Systems Program Office provides
      solutions that support CBP inspection and enforcement activities to
      help CBP officers and analysts protect borders. The Border
      Enforcement and Management Systems Program Office provides
      concentrated support for border enforcement systems for the Office
      of Border Patrol, the Office of Field Operations, and the Office of
      Air and Marine. The Wireless Systems Program Office provides
      expertise for tactical communications and related wireless efforts.

      In addition, there are two enterprise IT management divisions. The
      Enterprise Data Management and Engineering Division provides
      enterprise solutions to optimize IT data integrity and accessibility
      and ensure performance quality, reliability, and 24×7 IT systems
      availability to support border protection and the facilitation of
      legitimate trade. The Enterprise Network and Technology Support
      Division provides operational day-to-day technology support to all
      CBP field locations, technology training, the enterprise wide area
      network, security operations, and help desk services.

      OIT has two additional support offices. The Field Support
      Program Office provides onsite customer service and support to
      CBP’s 58,000 employees throughout the United States and
      overseas to minimize service interruptions in support of the
      mission. The Laboratories and Scientific Services Office provides
      forensic and scientific testing in the areas of trade enforcement,
      weapons of mass destruction, intellectual property rights, and
      narcotics enforcement. Figure 2 shows the CBP OIT
      organizational structure.




CBP Information Technology Management: Strengths and Challenges

                            Page 4
      Figure 2. CBP’s OIT Organizational Structure as of October 2011

      IT systems play a critical role in enabling CBP to accomplish its
      border security, trade, and travel missions. CBP’s OIT supports
      business processes with the design, development, programming,
      testing, implementation, training, and maintenance of CBP
      automated systems. Some of CBP’s major commercial and
      enforcement systems are listed below.

      Commercial Systems
           Automated Commercial System (ACS) - ACS is the system
           CBP uses to track, control, and process all commercial
           goods imported into the United States.
           Automated Commercial Environment (ACE) - ACE is a
           commercial trade processing system designed to automate
           border processing. ACE will eventually replace ACS.

      Enforcement Systems
             Automated Targeting System (ATS) - ATS is an Intranet-
             based enforcement and decision support tool that assists
             CBP officers and analysts in selecting individuals or cargo
             that pose a greater risk for violation of U.S. law for
             additional screening.
             TECS provides computer-based access to enforcement files
             of common interest, online access to the Federal Bureau of
             Investigation’s National Crime Information Center, and an


CBP Information Technology Management: Strengths and Challenges

                             Page 5
                                   interface with the National Law Enforcement
                                   Telecommunications System.
                                   The Next Generation of Enforce (E3) - E3 is a CBP-
                                   developed transactional enforcement application that
                                   captures all enforcement actions for Border Patrol agents
                                   and CBP officers.

                          The CBP Chief Information Officer (CIO) has undertaken an
                          initiative to transform the way OIT provides IT support to CBP.
                          This transformation initiative will replace CBP’s aging IT
                          infrastructure, which is costly to maintain. Most of OIT’s budget
                          goes toward operations and maintenance of this outdated
                          infrastructure. At the same time, demand for IT services is
                          growing and becoming more critical for CBP’s mission. The CIO
                          estimates that demand for storage and processing capacity is
                          increasing at the rate of 50 percent per year. The CIO must
                          address these issues within the confines of a declining IT budget.
                          The OIT budget has decreased by $335 million since FY 2009 as
                          funds were reallocated to pay for other CBP shortfalls.

                          To address these challenges, OIT is leveraging technologies that
                          enable it to operate and deliver customer capabilities more
                          efficiently. To modernize the infrastructure, the CIO is working to
                          replace obsolete technology, migrate to the DHS data center, and
                          move toward private cloud infrastructure where possible.1 Further,
                          the CIO is transitioning from mainframe to web-based applications
                          and turning off less critical tools.2 The CIO also is planning to
                          automate the data center and network management environment by
                          implementing end-to-end monitoring processes that will provide
                          greater visibility into the service levels and costs of services that
                          support CBP’s lines of business. Additionally, OIT is transforming
                          its workforce and communications through efforts such as
                          retraining its government employees and contractors and
                          federalizing its workforce.




1
  Cloud computing is the delivery of computing as a service rather than a product, whereby shared
resources, software, and information are provided to computers and other devices as a utility (like the
electricity grid) over a network such as the Internet.
2
  Mainframe computers are powerful computers used primarily by corporate and government organizations
for critical applications. After 2000, most modern mainframes have phased out classic terminal access for
end users in favor of web user interfaces.

                   CBP Information Technology Management: Strengths and Challenges

                                                 Page 6
Results of Audit
        IT Management Capabilities
                The CIO has taken several actions to support effective stewardship of IT
                resources. Specifically, the CIO has implemented a strategic planning
                process to ensure that OIT supports CBP and Department mission and
                goals. In addition, the CIO has developed an enterprise architecture to
                ensure that CBP’s IT environment is aligned with the Department’s
                architecture, although additional progress is needed in certain key areas.
                Finally, the CIO has implemented a systems engineering life cycle process
                to manage IT programs from initiation through retirement. As a result,
                OIT has critical capabilities in place to help ensure effective IT
                management and guide future initiatives, such as the CIO’s effort to
                transform the way OIT does business over the next several years.

                The CIO, however, does not have full oversight of IT spending across all
                programs and activities within CBP. Specifically, CBP component offices
                have submitted IT spending requests that were processed by procurement
                without going through the IT Acquisition Review (ITAR) process.
                Component noncompliance with ITAR occurred because component
                offices and procurement personnel were unfamiliar with the process, and
                the extended time taken for reviews has been a disincentive. IT
                acquisitions that do not go through the ITAR process increase the risk of
                security issues or enterprise alignment challenges.

                        Strategic Planning

                        The Government Performance and Results Act of 1993 holds
                        Federal agencies responsible for strategic planning to ensure
                        efficient and effective operations and use of resources to achieve
                        mission results.3 Additionally, Office of Management and Budget
                        (OMB) Circular A-130, as revised, instructs agency CIOs to create
                        strategic plans that demonstrate how information resources will be
                        used to improve the productivity, efficiency, and effectiveness of
                        government programs.4 Finally, DHS Management Directive
                        (MD) 0007.1 requires component CIOs to develop and implement
                        an IT strategic plan that clearly defines how IT supports a
                        component’s mission and drives investment decisions, guiding the
                        component toward its goals and priorities.5


3
  Public Law 103-62, Government Performance and Results Act of 1993, August 3, 1993.
4
  OMB Circular A-130, Management of Federal Information Resources.
5
  DHS, MD 0007.1, Information Technology Integration and Management, March 15, 2007.

                  CBP Information Technology Management: Strengths and Challenges

                                              Page 7
                          The CIO has an effective strategic planning process in place to
                          meet Federal requirements and departmental guidance. In 2008,
                          the CIO implemented an IT strategic plan for FY 2009 through FY
                          2015. In 2011, however, the CIO determined that it was necessary
                          to draft a new plan to address shifts in the OIT budget, emerging
                          technologies, and new departmental direction. The CIO was
                          scheduled to implement a revised plan, the CBP OIT Strategic
                          Implementation Plan FY 2012-2016, in March 2012. The draft
                          plan identifies five broad goals, listed in table 1, for achieving
                          OIT’s mission over the next 4 years.

                          Table 1. OIT Strategic Goals




                          To accomplish these broad goals, the CIO has established specific
                          objectives for each goal with associated key performance
                          indicators. For example, to meet the goal to modernize and
                          transform CBP’s infrastructure, the plan identifies five objectives,
                          including strengthening processes, moving toward the target
                          technical architecture,6 and migrating to the Enterprise Data
                          Center.7 For each of these objectives, the plan defines key
                          performance indicators that will measure progress toward
                          achieving this goal. The plan also identifies key initiatives related
                          to each goal. For example, initiatives to use cloud-based services,
                          complete field technology upgrades, and migrate systems off of
                          mainframe platforms all contribute to achieving the goal to
                          modernize and transform the infrastructure.


6
  The target technical architecture is the technical infrastructure that portrays the future or end-state
enterprise.
7
  The Enterprise Data Center initiative encompasses the migration of 24 disparate DHS computing facilities
to two geographically diverse, state-of-the-art, and secure enterprise data centers.

                   CBP Information Technology Management: Strengths and Challenges

                                                  Page 8
                        The CBP OIT Strategic Implementation Plan FY 2012–2016 aligns
                        with the goals identified in the DHS and CBP strategic plans. The
                        plan is also aligned with the DHS Information Technology
                        Strategic Plan 2011–2015 to ensure that CBP OIT supports the
                        DHS CIO’s department-wide IT goals. Table 2 shows the
                        alignment of OIT goals with DHS and CBP goals.
                        Table 2. Alignment of OIT Goals With CBP, DHS, and DHS CIO Goals




                        The CIO’s implementation of a well-aligned, up-to-date strategic
                        plan will position OIT to provide effective support to meet mission
                        requirements. An effective IT strategic plan helps focus limited
                        resources and guide the direction of the OIT. If implemented as
                        planned, the IT strategic plan will help CBP personnel fulfill their
                        mission responsibilities.

                        Enterprise Architecture

                        The Clinger Cohen Act of 1996,8 as amended, and OMB circulars9
                        mandate the establishment and use of an enterprise architecture
                        (EA) to guide and direct government investments from inception
                        through retirement. In addition, OMB Memorandum M-11-29,
                        dated August 2011, states that CIOs must use an EA to consolidate

8
  Public Law No. 104-106, Division E, February 10, 1996. The law, initially titled the Information
Technology Management Reform Act of 1996, was subsequently renamed the Clinger-Cohen Act of 1996 in
P. L. 104-208, September 30, 1996.
9
  OMB Circular A-130, Revised, Management of Federal Information Resources; and OMB Circular A-11,
Revised, Preparation, Submission, and Execution of the Budget.

                  CBP Information Technology Management: Strengths and Challenges

                                              Page 9
                        duplicative investments and applications.10 EA is a management
                        practice designed to maximize the contribution of an agency’s
                        resources, IT investments, and system development activities to
                        achieve mission performance goals.

                        The CIO has developed an EA to align with the Department’s
                        architecture and guide CBP’s IT environment. The 2010 DHS EA
                        assessment identified CBP’s EA program at stage four of the six
                        stages of the EA Management Maturity Framework.11 CBP’s EA
                        maturity rating was the highest among DHS components. At stage
                        four maturity, an organization has developed an approved version
                        of its EA that is used for targeted results, such as guiding
                        investment decisions. Figure 3 shows CBP’s EA maturity within
                        the stages of the EA Management Maturity Framework.




                        Figure 3. Stages of EA Management Maturity Framework With CBP EA Maturity

                        As a result of CBP’s progress establishing its EA, the CIO has
                        realized benefits through sharing, reuse, and standardization of IT
                        resources. Specifically, in FY 2011 the EA Branch conducted 20
                        architecture alignment reviews of investments that resulted in the
                        identification of 90 architecture misalignments. The EA Branch
                        addressed these misalignments through elimination of duplicate
                        efforts and identification of consolidation, integration, and reuse
                        opportunities to realize cost avoidance totaling $6.1 million. The
                        CIO has also used the EA to eliminate systems that are no longer
                        needed. For example, the EA Branch performed an analysis of
                        border enforcement support systems that identified 16 systems for
                        retirement, some of which were no longer being accessed or had
                        been replaced by newer systems but had not yet been retired.




10
  OMB M-11-29, Chief Information Officer Authorities, August 8, 2011.
11
  GAO-10-846G, A Framework for Assessing and Improving Enterprise Architecture Management
(Version 2.0), August 2010.

                  CBP Information Technology Management: Strengths and Challenges

                                              Page 10
                            Development of Target Business Architecture

                            Although CBP has developed an EA, the EA Branch has not
                            analyzed the “As-Is” business processes to identify efficiencies and
                            fully develop a target “To-Be” view of these processes.12 The EA
                            Branch is currently building various segments of the “To-Be”
                            view. For example, the EA Branch worked to model “To-Be”
                            process flows for several CBP component offices in 2011. The EA
                            Branch anticipates multiple iterations of the “To-Be” business
                            architecture as various segments are built out.

                            Progress developing the “To-Be” business architecture has been
                            hindered, in part, by staffing and funding shortages. The EA
                            Branch’s staff of 23 employees falls short of its identified need for
                            52 employees. Additionally, the EA Branch has absorbed a 50
                            percent reduction in its operating budget over the past few years.
                            With limited staff and a reduced budget, progress toward
                            establishing the “To-Be” business architecture has been delayed.

                            Without a complete view of CBP’s target EA, the CIO faces
                            increased risks to efforts to modernize the way OIT provides
                            support to CBP. An EA serves as a critical blueprint that can help
                            ensure that OIT will meet current and future customer needs as the
                            CIO transforms the way OIT does business. For example, an
                            effective “To-Be” architecture can identify potential efficiencies
                            from the elimination of programs that may not align with future
                            mission needs.

                            Systems Engineering Life Cycle Process

                            DHS Acquisition Directive 102-01, Appendix B, requires agencies
                            to follow a systems engineering life cycle (SELC) process.13 The
                            purpose of the DHS SELC is to establish a standard system life
                            cycle framework across DHS components and to ensure that DHS
                            IT capabilities are delivered efficiently and effectively.

                            The CBP CIO has implemented the SELC process in compliance
                            with departmental guidance. Specifically, OIT maintains an online
                            process guide, which is CBP’s implementation of the DHS SELC,

12
   Baseline architecture is the set of products that portray the existing enterprise, the current business
practices, and technical infrastructure. It is commonly referred to as the “As-Is” architecture. Target
architecture is the set of products that portray the future or end-state enterprise, generally captured in an
organization’s strategic thinking and plans. It is commonly referred to as the “To-Be” architecture.
13
   DHS AD 102-01, Interim Version 1.9, Acquisition Directive, Instruction Appendix B, November 7,
2008.

                     CBP Information Technology Management: Strengths and Challenges

                                                    Page 11
      called the Enterprise Life Cycle Methodology and Online SELC.
      This online tool provides a repository of approved project
      management support processes and procedures, tools, and
      templates. Figure 4 shows the phases of the DHS SELC and the
      alignment of CBP’s Enterprise Life Cycle Methodology phases.




      Figure 4. DHS and CBP IT Life Cycle Alignment

      CBP has also implemented a governance structure to ensure a level
      of oversight of IT projects that is appropriate for the size of the
      investment. IT investments with a life cycle cost of $300 million
      and above are considered major acquisitions and are reviewed by
      DHS. Investments below $300 million are reviewed within CBP
      according to three levels. The CBP Executive Steering Committee
      approves non-major acquisitions with a total life cycle cost from
      $50 million to $300 million. The CBP Governance Board
      approves non-major acquisitions with a total life cycle cost of
      $10 million to under $50 million. The CBP Enterprise
      Architecture Review Board approves non-major acquisitions with
      a total life cycle cost of less than $10 million. Figure 5 shows the
      delegation of decision authorities for non-major acquisitions to
      CBP governance boards based on a program’s life cycle cost.




      Figure 5. CBP Decision Thresholds and Decision Authorities for Non-major
      Acquisitions

      OIT’s implementation of the SELC has been effective for several
      reasons. CBP had a SELC process in place prior to the
      implementation of Acquisition Directive 102-01 in November
CBP Information Technology Management: Strengths and Challenges

                            Page 12
      2008. OIT has a history of project management discipline,
      including the use of its own SELC process, which enabled easier
      migration of the organization’s practices to the DHS SELC
      process. OIT also had senior executive support and involvement,
      strong program management, and SELC education and training
      programs.

      In addition to aligning with the DHS SELC, CBP’s system
      engineering governance processes are streamlined and clearly laid
      out to ensure adherence and compliance. The benefits of this
      improved process include artifact standardization across programs
      throughout DHS, reduced risk because of known standard criteria
      in the internal and external reviews, and the program’s ability to
      meet their scope within schedule and cost. According to the OIT
      official responsible for the process, all applicable IT projects
      within CBP go through the SELC process. These IT engineering
      governance processes enable CBP to make IT investment decisions
      that will support both CBP and DHS strategic goals.

      IT Acquisition Review

      DHS MD 0007.1 requires IT acquisitions valued at $2.5 million or
      greater to be submitted to the DHS CIO for review. The directive
      also requires agency CIOs to implement an ITAR process for IT
      acquisitions below $2.5 million. ITAR is required before the
      award of an IT procurement to ensure alignment of acquisitions
      with IT policy, standards, objectives, and goals across DHS.

      The CBP CIO began submitting IT acquisitions valued at
      $2.5 million and above to the DHS CIO in FY 2007. That year,
      the CBP CIO submitted 77 IT acquisitions for review. The number
      of acquisitions submitted peaked at 198 in FY 2009. The number
      of IT acquisitions submitted to the DHS CIO for review has
      declined since FY 2009 due to an overall decrease in new initiative
      funding, according to OIT officials. Figure 6 shows the number of
      IT acquisitions submitted to the DHS CIO for review from FY
      2007 to FY 2011.




CBP Information Technology Management: Strengths and Challenges

                            Page 13
      Figure 6. IT Acquisition Reviews ≥ $2.5 Million Submitted to the DHS CIO
      (FY 2007 to FY 2011)

      The CBP CIO has also taken steps to ensure compliance with the
      ITAR requirement by implementing an ITAR process in FY 2009
      to review IT acquisitions with costs below $2.5 million and above
      $1 million. In FY 2009, the CBP CIO reviewed 75 IT acquisitions.
      The number of ITAR reviews declined in 2011 as new initiative
      funding has decreased. Figure 7 shows the number of ITAR
      reviews below $2.5 million and above $1 million from FY 2009
      through FY 2011.




      Figure 7. IT Acquisition Reviews Below $2.5 Million and Above $1 Million
      Conducted by the CBP CIO (FY 2009 to FY 2011)

      ITAR Compliance

      Although the CBP CIO has made progress implementing the ITAR
      process, not all IT acquisitions that met the dollar threshold and
      criteria for review have gone through the process. Specifically,

CBP Information Technology Management: Strengths and Challenges

                             Page 14
      CBP component office IT acquisitions were processed and
      approved by procurement without going through the ITAR review.
      OIT personnel run monthly reports to identify procurements that
      appear to be IT and have been awarded without ITAR review.
      These reports have identified nearly a dozen acquisitions that were
      IT related and were awarded without CIO review. For example,
      OIT personnel have identified IT procurements for human
      resources systems, financial systems, and border security systems
      that did not go through ITAR.

      Noncompliance with ITAR occurs because CBP component
      offices do not always follow applicable guidance. According to
      agency guidance, CBP component offices are required to submit
      acquisitions that meet the ITAR criteria to the CIO before
      submitting them to procurement. The CBP Commissioner issued a
      memorandum in March 2008 to require that CBP component
      offices comply with the ITAR process. This memorandum
      instructed CBP component organizations to submit applicable
      acquisitions to OIT for approval. Since this March 2008 memo,
      however, compliance challenges remain.

      One reason noncompliance remains a challenge for the CIO is the
      perception that the ITAR process has taken an extended time to
      complete. During an OIT workshop in FY 2010, the ITAR process
      was identified as a key process in need of improvement.
      Specifically, participants at the workshop concluded that ITAR
      should be redesigned to institutionalize a consistent, enterprise-
      wide approach to processing IT investment acquisition requests.

      OIT has taken a number of steps to improve compliance with
      ITAR. Specifically, OIT personnel have met with the procurement
      directorate branch chiefs and the budget officers of other CBP
      offices to advise them of the ITAR requirement and request their
      assistance in helping to ensure that all applicable CBP acquisitions
      follow the process. In addition, OIT personnel reach out to
      respective CBP component offices to remind them of the process
      and offer training when noncompliance is identified. Finally, OIT
      personnel work with CBP component offices to assure them that
      the ITAR reviews will be processed in a timely manner.

      Limitations with ITAR compliance have an impact on the CIO’s
      ability to manage CBP’s IT environment effectively. IT acquisition
      reviews enable the CIO to align IT acquisitions with CBP IT
      policies, standards, objectives, and goals. ITAR also helps the CIO
      validate CBP’s alignment with the DHS enterprise architecture and

CBP Information Technology Management: Strengths and Challenges

                            Page 15
       ensure compliance with security and accessibility requirements.
       However, IT acquisitions that do not go through this process do not
       go through these alignment reviews and create a risk to CBP’s IT
       environment.

Recommendations
       We recommend that the Assistant Commissioner, Office of
       Information and Technology:

       Recommendation #1: Provide the necessary resources to
       complete required enterprise architecture activities.

       Recommendation #2: Implement a plan to ensure the timeliness
       of the ITAR review process and to communicate this process to
       component offices and procurement to achieve full compliance.

Management Comments and OIG Analysis
       We obtained written comments on a draft of this report from the
       Assistant Commissioner, Office of Internal Affairs. We have
       included a copy of the comments in their entirety in appendix B.

       In the comments, the Assistant Commissioner concurred with our
       recommendations and provided details on steps being taken to
       address specific findings and recommendations in the report. We
       have reviewed management’s comments and provided an
       evaluation of the issues outlined in the comments below.

       In response to recommendation one, the Assistant Commissioner
       concurred and stated that CBP will attempt to provide resources
       sufficient to complete required enterprise architecture activities.
       The Assistant Commissioner also provided details about initiatives
       underway, within the resources currently available, to support
       enterprise architecture activities effectively. We recognize the
       establishment of the Transformation Support and Management
       Group as progress toward a more integrated approach to provided
       resources to support enterprise architecture development. The
       Assistant Commissioner requested closure of this recommendation;
       however, we require additional evidence of the positive impact of
       actions taken before closing this recommendation.

       In response to recommendation two, the Assistant Commissioner
       concurred and stated that the OIT Financial Management Group
       would establish outreach efforts, in addition to those already in

 CBP Information Technology Management: Strengths and Challenges

                             Page 16
                           place, to achieve full compliance with the ITAR process. We
                           recognize this action as a positive step toward addressing
                           recommendation two. The Assistant Commissioner requested
                           closure of this recommendation; however, we require additional
                           evidence of the positive impact of actions taken before closing this
                           recommendation.

           IT Support of Mission Needs
                   Although the CIO has implemented several key IT management practices,
                   challenges remain in ensuring that the IT environment fully supports
                   CBP’s mission needs. Specifically, OIT faces challenges with system
                   availability, including periodic outages of critical security systems.
                   Systems outages have occurred in part because of aging infrastructure,
                   which has not been updated as required because of funding reductions. In
                   addition, the interoperability and integration of the IT infrastructure have
                   not been sufficient to support CBP mission activities fully, due to lengthy
                   requirements gathering and technology insertion processes. As a result,
                   staff have created workarounds and employed alternative solutions to
                   accomplish the mission, including assigning agents to perform duplicative
                   data entry—instead of enforcement duties in the field—and operating
                   stand-alone, non-approved IT. Such activities may hinder CBP’s ability to
                   safeguard borders, foster the Nation’s economic security through lawful
                   international trade and travel, and ensure officer safety.

                           Availability and Outages

                           DHS MD 0007.1 states that the component CIO is responsible for
                           acquiring, developing, operating, and maintaining all mission-
                           related systems and services. In addition, under the Paperwork
                           Reduction Act of 1995, as amended, and the Clinger-Cohen Act of
                           1996, as amended, agencies are required to acquire, manage, and
                           use IT to improve mission performance, and plan in an integrated
                           manner for managing their IT architecture.14

                           OIT has faced challenges with system availability. Specifically,
                           results from the 2010 OIT Customer Satisfaction Survey indicated
                           that system availability had declined over the prior 2 years. The
                           survey asked CBP component personnel from various offices,
                           including the Office of Air and Marine, the Office of Border
                           Patrol, and the Office of Field Operations, whether system
                           availability had improved, declined, or did not change. The results
                           show increases across these organizations in respondents who said

14
     Public Law 104-13, Paperwork Reduction Act of 1995, May 22, 1995.

                     CBP Information Technology Management: Strengths and Challenges

                                                 Page 17
      availability had declined. For example, in 2008, 11 percent of
      respondents from the Office of Air and Marine indicated that
      system availability had declined, whereas in 2010 28 percent of
      respondents indicated that availability had declined. Survey
      respondents identified several systems that were continuously
      experiencing availability challenges, such as the Vehicle Primary
      Client, which processes and documents travelers entering the
      United States by vehicle at land ports of entry. Figure 8 shows the
      decline in customer satisfaction with system availability.




      Figure 8. Increase in Customer Dissatisfaction With Availability, From OIT
      Customer Satisfaction Survey for 2010

      Periodic outages of critical security systems, such as the Secure
      Flight system, have also been reported. Secure Flight is a program
      that enhances the security of air travel through a streamlined watch
      list matching process. A report on Secure Flight outages from
      January to June 2011 identified outages. Of these outages,
          were related to DHS computer systems managed by CBP,
      which supports parts of the Secure Flight infrastructure. Some
      outages were prolonged. For example,

                                                                       OIT
      determined that the cause of this outage


      Aging Infrastructure

      Challenges with systems availability and outages occur in part
      because of aging infrastructure that has not been updated as




CBP Information Technology Management: Strengths and Challenges

                             Page 18
                           required. One high-level OIT official estimated that 70 percent of
                           CBP’s infrastructure is more than 4 years old. One part of the
                           infrastructure that has not been updated as required is network
                           components such as servers, routers, and switches.16 For example,
                           servers are typically replaced every 3 years; however, CBP has a
                           large number of servers that were being used beyond this
                           recommended life cycle. Specifically, at CBP’s data center the
                           average age of servers was 6.5 years. Figure 9 shows that only 29
                           percent of the data center’s servers were within the recommended
                           life cycle, while 54 percent were 4 to 7 years old, and 17 percent
                           were 8 to 12 years old.




                           Figure 9. Age of CBP Servers as of December 2011

                           Similarly, CBP field personnel rely on obsolete network routers
                           and switches. Switches are typically replaced every 5 to 6 years.
                           However, OIT leadership said that CBP has network switches that
                           are 12 to 14 years old.

                           Certain field personnel also have been using obsolete computers.
                           Some CBP component offices, such as the Office of Border Patrol,
                           have had funding available to replace computers on a 3-year cycle.
                           Other offices, however, such as the Office of Field Operations,
                           have not followed a regular replacement schedule. In several field
                           locations that we visited, IT support personnel had replaced
                           outdated computers with retired Border Patrol computers because
                           they were much newer than the computers still in use by other
                           offices at these locations.

16
  Routers connect a network, acting as dispatchers to choose the best path for information to travel so it is
received quickly. A server is a computer dedicated to running one or more services to serve the needs of
users of other computers on the network.

                    CBP Information Technology Management: Strengths and Challenges

                                                   Page 19
      Funding for Operations and Maintenance

      OIT has not replaced old infrastructure because of funding
      reductions. Specifically, OIT’s budget has been cut by $335 million
      since 2009, and further cuts are expected in coming years. CBP
      has a $557.8 million investment to maintain CBP’s infrastructure
      across 10 areas, including updating network infrastructure and
      computers. However, this investment is at risk. The DHS CIO has
      designated this project as a medium-risk project on the Federal IT
      dashboard. The Federal IT dashboard assigns major investments a
      numeric score and a color code associated with the risk level. A
      score of five is low risk, which is identified as “green,” and a score
      of one is high risk, which is identified as “red.” CBP’s
      infrastructure maintenance investment scored a three with a color
      code of “yellow,” associated with a medium-risk project. The
      assessment of this investment indicated that it is a medium-risk
      project because of delays caused by limited funding.

      OIT leadership has briefed CBP program offices on the risk of
      outages and the need for CBP to allocate funding toward operations
      and maintenance to avoid critical interruptions that have an impact
      on CBP’s mission. Maintaining an aging infrastructure is costly,
      and the CIO plans to reduce overall operations and maintenance
      costs by modernizing the infrastructure. However, with more
      budget cuts pending, OIT is reliant on CBP leadership to prioritize
      funding for maintaining and transforming the infrastructure.

      In addition, some field personnel with whom we spoke said that
      the responsibility for operations and maintenance costs in the field
      was not always clearly defined. For example, at one field location,
      Border Patrol personnel had purchased a document management
      system with the expectation that OIT would cover the operations
      and maintenance costs. IT field personnel were not authorized or
      trained to perform database management, and the vendor charged a
      $12,000 annual fee for maintenance. Because of the lack of clarity
      on who was responsible for paying for operations and maintenance,
      this fee was not paid for several years and, therefore, the
      maintenance was not performed. Due to the lack of maintenance,
      this aging system was becoming unstable, and there was a risk that
      the system would fail and all local Border Patrol documents would
      be lost.




CBP Information Technology Management: Strengths and Challenges

                            Page 20
      Reduced IT Support in the Field

      Another factor affecting system availability is the reduction in
      technology field support personnel due to budget cuts. Specifically,
      as OIT moved toward a centralized help desk structure, field
      technology support was reduced by 166 personnel, from 785 to
      619, in 2009. With reduced numbers, technology personnel in the
      field had difficulty supporting numerous geographically dispersed
      sites that may be hard to access. For example, in some areas in the
      Northwest it can be an all-day drive for technology field support
      personnel to get to a site. Furthermore, some locations have a
      small number of technology support personnel to cover a large
      area, which can lead to downtime if multiple sites need support
      simultaneously.

      In addition, as field operations expanded there was often no
      commensurate expansion of IT support. For example, at a new
      Border Patrol facility in Tucson, intelligence personnel lost
      information because IT field support personnel did not verify that
      30-day server backups were occurring. Intelligence officers had to
      recreate numerous reports on organizations and individuals being
      targeted, such as smuggling organizations. The manager of this
      office said that this mistake would have been avoided with a
      dedicated IT support person. When this new facility was created,
      however, additional resources for technology support were not
      factored in, and technology support personnel in this sector were
      stretched too thin. The field IT support personnel said that they are
      in a reactive mode of fixing what breaks, whereas the goal should
      be to be proactive.

      Bandwidth

      Increasing demand for bandwidth has also contributed to system
      availability challenges. Commercial network providers do not
      offer service in many of the areas where CBP operates;
      consequently, it is costly to provide adequate bandwidth in some
      areas. In addition, CBP is transitioning mainframe systems to
      web-based systems. For example, TECS and ACE, two of CBP’s
      largest enterprise systems, are being modernized and moved off of
      the mainframe. Demand for bandwidth increases as more
      applications become web-based. As a result, CBP personnel in
      areas with limited bandwidth have increased difficulty accessing
      required systems.




CBP Information Technology Management: Strengths and Challenges

                            Page 21
      As a result of availability challenges and outages, CBP faces
      critical impediments to achieving its border security, trade, and
      travel missions effectively. For example, for every hour of
      downtime, 46,000 people and 3,000 containers back up at the
      borders, seaports, or airports during normal operations; during
      peak hours as many as 120,000 people may be affected. A
      nationwide passenger outage of more than 2 hours would cause
      significant problems for air travel and land borders, and a 1-day
      nationwide outage affecting cargo would have national economic
      consequences. This was evident on August 11, 2007, when a
      network outage at the Los Angeles International Airport prevented
      CBP from conducting its normal operations for approximately 10
      hours and affected more than 17,000 passengers.

      Interoperability and Functionality

      OIT faces challenges with external interoperability and internal
      functionality. Specifically, in some regions, CBP employees do
      not use digital radio communications or have access to websites
      and software provided by external partners. In addition,
      enterprise-wide systems do not meet all CBP users’ requirements,
      such as for internal reporting, needed to support CBP’s mission.

      External Interoperability

      Office of Border Patrol staff cannot communicate seamlessly with
      Federal, State, and local partners in all sections of the country.
      Specifically, staff in some regions are using analog radios, which
      creates communications barriers with partners such as the U.S.
      Coast Guard and local, county, and State law enforcement
      organizations. For example, in 2009, CBP agents in one location
      were unable to share information with the U.S. Coast Guard
      through a secure mode for approximately 3 to 6 months. When the
      U.S. Coast Guard switched from analog communications to digital
      communications, CBP staff in the region lost the ability to share
      encrypted information with the U.S. Coast Guard. Once notified
      of the inability to communicate securely, CBP field technicians
      resolved the issue by programming the radios to allow
      communication between the two agencies. Had there been an
      emergency situation, however, staff would not have been able to
      communicate effectively. According to CBP OIT field support
      staff, this interruption in communication could have been avoided
      if standard methods of notifications for changes to tactical
      communications had been available.


CBP Information Technology Management: Strengths and Challenges

                            Page 22
      In addition, CBP faces communication challenges with State and
      local partners in some regions. Specifically, in some regions, key
      partners use digital communications, while Border Patrol agents in
      the same communities may use analog communications. After
      September 11, 2001, State and local officials’ radios switched to
      digital communications. However, Office of Border Patrol staff in
      some regions cannot communicate with radios at that frequency.
      In these regions, State and local interoperability is provided by the
      use of two portable radios and a direct line to a dispatch center at
      the Office of Border Patrol. For example, in one location a Border
      Patrol agent on duty in the field might reach out to local law
      enforcement for assistance and backup support. Without digital
      radio communications, the agent must use the dispatch center to
      connect to the local law enforcement office for assistance. Staff
      reported that communicating through the dispatch center is not
      always feasible because it requires an open line, and it takes longer
      than using direct digital radio communications. The use of two
      portable radios for communication between Border Patrol and
      other partners also has challenges. If an agent forgets the Border
      Patrol radio, the agent cannot keep the home office informed of his
      or her needs, and local law enforcement must call the Border Patrol
      office to let it know, for example, when the officer is in pursuit.

      The current radio environment in certain regions contributes to
      officer safety challenges and threats to security around the
      Nation’s borders. Analog radio communication in some regions is
      unencrypted, which may result in unsecure communications.
      While the dispatch center aids in communication, it is not an ideal
      environment for mission operations. For example, staff at one
      Border Patrol sector described an environment in which dispatchers,
      trained to operate multiple phones simultaneously and to cover the
      entire State and partners such as the U.S. Coast Guard, may “burn
      out.” Border Patrol staff then must train additional staff to work in
      the dispatch center. In addition, staff with whom we met agreed
      that scrambling to find a radio to contact the office might distract
      an agent from enforcement and surveillance activities. Further, if
      the dispatch connection were to go down, the agent might be
      disconnected from sufficient outside support.

      Office of Air and Marine staff with whom we met reported
      challenges in accessing the government and military-issued web
      sites they need to accomplish their missions. For example, they
      reported being unable to access critical government web sites
      necessary for mission activities such as setting up a flight plan.
      Such web sites include the National Geospatial Intelligence

CBP Information Technology Management: Strengths and Challenges

                            Page 23
      Agency web site, Army Knowledge Online, the Joint Technical
      Data Integration web site, and aviation weather web sites. In
      addition, Air and Marine staff reported being unable to use key
      software necessary for planning routes, charts, and flights, as well
      as aircraft maintenance for select aircraft, because the software was
      not on the approved technology list.

      As a result, the Office of Air and Marine staff set up stand-alone
      computers to view the inaccessible web sites and to install the
      military software to meet their needs. Stand-alone computers may
      create security, integration, and maintenance challenges. OIT
      Field Technology Officers cannot maintain IT that is not on the
      approved list. Therefore, if a non-approved IT product breaks,
      OIT staff are not authorized to fix it. Non-approved technology
      creates security challenges. In addition to operating stand-alone
      computers, staff may place non-approved IT on the network
      without realizing that the information could be compromised.
      Since non-approved technology has not been approved or tracked
      by OIT, Information Systems Security Officers throughout CBP
      may not be aware it exists, and it could compromise network
      security.

      Internal Functionality

      CBP staff face challenges in transferring and sharing data locally
      or internally as well. For example, Office of Air and Marine staff
      said that they needed to transfer unencrypted data from the aircraft
      digital video recorders onto computers, where it can be shared on
      the network for evidence and intelligence purposes. Because DHS
      policy prevents the use of portable media devices, staff obtained a
      waiver to transfer unencrypted data from the aircraft to network
      computers. In addition, the agency bought approximately 20 scope
      trucks at an estimated $450,000 each for Border Patrol offices.
      Border Patrol agents in one region reported that an agent using a
      scope truck in the field can view live video from the truck’s mobile
      video surveillance system, which includes two cameras. However,
      the video feed cannot be recorded or sent over the network.
      Therefore, agents cannot view the feed from the command center
      or use it as evidence.

      In addition, some enterprise systems and applications do not
      include the reporting functionality that users need at the field
      component or program level. For example, E3, an enterprise-wide
      system, does not capture the information that field personnel need
      on the form generated for each illegal alien transported through the

CBP Information Technology Management: Strengths and Challenges

                            Page 24
      Alien Transfer Exit Program. Approximately seven Border Patrol
      sectors in the Southwest are involved with this program. To
      overcome this system limitation, since December 2010, agents in
      one sector have entered identical information each day pertaining
      to hundreds of individuals into both E3 and Excel in order to
      produce the required reports that E3 alone cannot produce. The
      reports include lists of transferred illegal aliens and other
      information that helps CBP determine the most effective
      operations. According to a site supervisor, multiple entry may
      increase the possibility of data integrity issues. Furthermore, when
      agents spend time reentering data, they are not spending that time
      on other duties, such as enforcement activities in the field.

      The Border Patrol Enforcement Tracking System (BPETS), an
      enterprise-wide system, also does not sufficiently meet the local
      reporting needs of field components. Specifically, staff in one
      sector have implemented duplicate and even triplicate reporting at
      the local level for some functions, including checkpoint activity
      reports, scheduling reports, zone activity reports, and intelligence
      reports. OIT staff reported that the input fields within BPETS
      were too restrictive to provide the level of reporting that local
      managers needed for planning and oversight, and that the system
      did not generate useful, consolidated reports. As a result, agents at
      these stations spent time duplicating or augmenting the required
      information for locally generated reports, using time that could be
      spent in direct support of enforcement duties or personnel
      management.

      Requirements and Technology Insertion

      OIT has established a requirements gathering process, but it does
      not fully support mission needs and is unclear to some staff with
      whom we met in the field. Each program office within OIT, such
      as the Border Enforcement and Management Systems Program
      Office, the Wireless Systems Program Office, and the Passenger
      Systems Program Office, has its own processes for meeting its
      customers’ needs and prioritizing requirements. CBP IT
      leadership noted challenges with the requirements process,
      including the length of time it takes to compile and implement
      requirements. Field staff with whom we met were sometimes
      unclear on how to share requirements or were not sure that their
      voices were being heard. For example, field staff might send a
      request, including what they need and why they need it, “up the
      chain” or through OIT. But staff with whom we met, including
      OIT staff, were not uniformly convinced that the process moved

CBP Information Technology Management: Strengths and Challenges

                            Page 25
      forward.

      OIT has also established a process for customers to request
      approval for new technology if a gap between a business need and
      the existing list of approved IT is identified. CBP’s Technical
      Reference Model contains the status of IT products and the degree
      to which CBP customers can use them. Customers may initiate
      requests for new technology through the Intranet. Upon reviewing
      and researching a customer’s request, OIT staff may approve the
      request and add the IT product to the Technical Reference Model.
      OIT staff in the field, however, reported that the technology
      insertion process was not an easy or quick process. One
      representative from OIT leadership said that it took 4 months to
      add new products to the Technical Reference Model. In addition, a
      customer may request that specific software be installed, but when
      field support staff search the Technical Reference Model, the
      version that is listed is one to two versions old. Staff said that the
      list was not consistently current and kept up to date, and that newly
      approved software might not be on the list.

      CBP is taking steps to improve the requirements process.
      Specifically, OIT has created governance boards to address and
      streamline requirements, which is critical to resolve emergencies,
      reduce redundant efforts, and identify priorities. For example,
      matters deemed to be emergencies, such as issues affecting officer
      safety, are resolved through processes established by the OIT
      Change Control Board. OIT has established the Customer Entry
      Point Governance Board, composed of senior executives from each
      OIT division, to review major OIT efforts and reduce duplication
      of efforts. Further, OIT has created the Requirements Management
      User Group in an effort to standardize the process for the
      management of requirements throughout OIT.

      In addition, OIT has initiated outreach activities to operational
      components. In October 2011, OIT leadership briefed key CBP
      offices on the status of OIT, during which staff learned about
      transformation efforts and the need for operational components to
      prioritize needs before providing them to OIT. In addition, OIT
      held monthly outreach meetings with the Office of Border Patrol,
      the Office of Air and Marine, the Office of Human Resources
      Management, the Office of Field Operations, and the Office of
      International Affairs. During these meetings, staff from these
      operational components brought forward IT issues and concerns,
      which were then tracked as they were resolved.


CBP Information Technology Management: Strengths and Challenges

                            Page 26
       As a result of IT not completely meeting user needs, CBP
       employees have created workarounds or employed alternative
       solutions that may have an impact on the agency’s ability to
       protect its frontline officers, secure the Nation’s borders, and
       ensure lawful trade and travel. Unsecured and insufficient
       communication can create safety risks for agents, officers, and
       other frontline staff. In addition, integration and interoperability
       gaps, such as the use of stand-alone computers or systems that do
       not communicate with each other, can lead to missed links and
       opportunities to gather the critical intelligence necessary to prevent
       illegal entry into the United States; stop terrorists and drug
       smugglers; and foster safe, legitimate trade and travel.

Recommendations
       We recommend that the Assistant Commissioner, Office of
       Information and Technology:

       Recommendation #3: Develop a funding strategy to ensure
       replacement of outdated infrastructure in order to address
       availability challenges and outages.

       Recommendation #4: Implement a plan to address gaps in the
       existing requirements and reassess the technology insertion process
       to address functionality and interoperability challenges in the field.

Management Comments and OIG Analysis
       We obtained written comments on a draft of this report from the
       Assistant Commissioner, Office of Internal Affairs. We have
       included a copy of the comments in their entirety in appendix B.

       In response to recommendation three, the Assistant Commissioner
       concurred and said that CBP has been working on an initiative to
       respond to the infrastructure needs of the Office of Field
       Operations, the Office of Border Patrol, and the Office of Air and
       Marine. He also said that CBP has been reporting on this initiative
       in response to a prior recommendation from our February 2011
       report, Planning and Funding Issues Hindered CBP’s
       Implementation of the System Availability Project. Our current
       report’s finding and recommendation, however, go beyond the
       scope of the 2011 report, which focused on CBP’s planning to
       reduce the risk of outages at border stations and ports of entry in
       the field. This report addresses availability challenges with
       network infrastructure in the field, as well as at headquarters.

 CBP Information Technology Management: Strengths and Challenges

                             Page 27
      Therefore, we do not agree that the June 2011 strategy for
      replacing outdated infrastructure is sufficient to address this
      recommendation. Before closing this recommendation, we require
      additional evidence of a funding strategy to address CBP’s
      challenges with outdated infrastructure in the field as well as at
      headquarters.

      In response to recommendation four, the Assistant Commissioner
      concurred with the recommendation and stated that CBP has
      already taken action to increase automation of the technology
      insertion process. Further, the Assistant Commissioner said that
      the OIT Chief Technology Officer agreed to reassess the
      automated implementation as part of an annual process review.
      We recognize this action as a positive step toward addressing this
      recommendation. This recommendation will remain open pending
      evidence of further progress in this regard.




CBP Information Technology Management: Strengths and Challenges

                            Page 28
Appendix A
Purpose, Scope, and Methodology

                    As part of our ongoing responsibilities to assess the
                    efficiency, effectiveness, and economy of departmental programs
                    and operations, we conducted an audit to evaluate the CBP CIO’s
                    overall IT management approach, including the extent to which IT
                    management practices have been put in place and the current IT
                    environment supports mission needs.

                    We researched and reviewed Federal laws, management directives,
                    and agency plans and strategies related to IT systems, management,
                    and governance. We obtained published reports, documents, and
                    news articles regarding CBP’s management and use of IT.
                    Additionally, we reviewed recent Government Accountability
                    Office and DHS OIG reports to identify prior findings and
                    recommendations. We used this information to establish a data
                    collection approach that consisted of focused interviews,
                    documentation analysis, site visits, and system demonstrations to
                    accomplish our audit objectives.

                    We held interviews and teleconferences with CBP staff at
                    headquarters and field offices. Collectively, we held more than 60
                    meetings with headquarters officials, field office officials, and
                    system users to learn about CBP’s IT functions, processes, and
                    capabilities. At headquarters, we met with CBP OIT officials
                    including the Deputy Assistant Commissioner, Chief Technology
                    Officer, branch chiefs, and program managers to discuss their roles
                    and responsibilities related to CBP IT management. We also met
                    with staff from OIT program offices, including the Passenger
                    Systems Program Office, Cargo Systems Program Office, Wireless
                    Systems Program Office, Border Enforcement and Management
                    Systems Program Office, and Targeting and Analysis Systems
                    Program Office.

                    At CBP field locations, we met with senior managers, area service
                    managers, field technology supervisors, field technology officers,
                    import specialists, agents, pilots, port directors, and other system
                    users to understand IT development practices, user requirements,
                    and system use in the field. We discussed the current IT
                    environment and the extent to which it met mission needs, local IT
                    development practices, and user involvement and communication
                    with headquarters. We collected supporting documents about
                    CBP’s IT environment, IT management functions, current
                    initiatives, and improvement initiatives.




              CBP Information Technology Management: Strengths and Challenges

                                          Page 29
Appendix A
Purpose, Scope, and Methodology

                    We conducted audit fieldwork from October 2011 to January 2012
                    at CBP headquarters offices in Washington, DC. We conducted
                    additional audit fieldwork at CBP field offices and operational sites.

                    We conducted this performance audit between October 2011 and
                    April 2012 pursuant to the Inspector General Act of 1978, as
                    amended, and according to generally accepted government
                    auditing standards. Those standards require that we plan and
                    perform the audit to obtain sufficient, appropriate evidence to
                    provide a reasonable basis for our findings and conclusions based
                    upon our audit objectives. We believe that the evidence obtained
                    provides a reasonable basis for our findings and conclusions based
                    upon our audit objectives.

                    The principal OIG points of contact for this audit are Frank Deffer,
                    Assistant Inspector General for Information Technology Audits,
                    and Richard Harsche, Director of Information Management. Major
                    OIG contributors to the audit are identified in appendix C.




              CBP Information Technology Management: Strengths and Challenges

                                          Page 30
Appendix B
Management Comments to the Draft Report




             CBP Information Technology Management: Strengths and Challenges

                                         Page 31
Appendix B
Management Comments to the Draft Report




             CBP Information Technology Management: Strengths and Challenges

                                         Page 32
Appendix B
Management Comments to the Draft Report




             CBP Information Technology Management: Strengths and Challenges

                                         Page 33
Appendix B
Management Comments to the Draft Report




             CBP Information Technology Management: Strengths and Challenges

                                         Page 34
Appendix B
Management Comments to the Draft Report




             CBP Information Technology Management: Strengths and Challenges

                                         Page 35
Appendix C
Major Contributors to This Report

                    Richard Harsche, Division Director
                    Steven Staats, Audit Manager
                    Elizabeth Argeris, Auditor-In-Charge
                    Swati Nijhawan, Auditor-In-Charge
                    Erin Dunham, Auditor
                    Sheila Cuevas, Auditor
                    Anthony Nicholson, Referencer




              CBP Information Technology Management: Strengths and Challenges

                                          Page 36
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      CBP, Commissioner
                      CBP, Deputy Commissioner
                      CBP, Assistant Commissioner, Office of Information and
                           Technology
                      CBP Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




               CBP Information Technology Management: Strengths and Challenges

                                           Page 37
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
